 DEPARTMENT OF HOMELAND SECURITY

  Ofﬁce of Inspector General


   Effectiveness of Customs and Border

 Protection’s Procedures to Detect Uranium

         In Two Smuggling Incidents





       Ofﬁce of Audits
OIG-04-40     September 2004
                                                                      Ofﬁce of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Ofﬁce of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG as part of its DHS oversight responsibility to identify and prevent fraud,
waste, abuse, and mismanagement.

This report represents an abbreviated version of our classiﬁed report assessing the effectiveness
of Customs and Border Protection’s procedures to detect uranium in two smuggling incidents. It
is based on interviews with employees and ofﬁcials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein, if any, have been developed to the best knowledge available to the
OIG, and have been discussed in draft with those responsible for implementation. It is my hope
that this report will result in more effective, efﬁ
                                                efﬁcient,
                                                   cient, and economical operations. I express my
appreciation to all of those who contributed to the preparation of this report.




                                              Clark Kent Ervin
                                              Inspector General
OIG

Department of Homeland Security
Ofﬁce of Inspector General


    Introduction
                        Since September 11, 2001, the U.S. Customs and Border Protection’s (CBP)
                        priority mission is detecting and preventing terrorists and terrorist weapons from
                        entering the United States (U.S.). A major component of its priority mission is to
                        ensure that oceangoing cargo containers arriving at the seaports of entry are not
                        used to smuggle illegal and dangerous contraband.

                        On September 11, 2002, ABC News reported that a steel pipe containing a
                        15 pound cylinder of depleted uranium was shipped from Europe to the U.S.
                        undetected by CBP. On September 11, 2003, ABC News reported that the same
                        cylinder was smuggled to the U.S. from Jakarta, Indonesia, again undetected.

                        At the request of John Dingell, Ranking Member, House Committee on Energy
                        and Commerce, and Jim Turner, Ranking Member, House Select Committee on
                        Homeland Security, we reviewed CBP’s procedures in place at the time of the two
                        smuggling incidents initiated by ABC News.

    Results in Brief
                        Improvements are needed in the inspection process to ensure that weapons of
                        mass destruction or other implements of terror do not gain access to the U.S.
                        through oceangoing cargo containers. Detection equipment and search protocols
                        and procedures are the two areas where improvements would enhance the
                        effectiveness of the inspection process. We made recommendations that address
                        these areas. CBP initiated numerous changes and has plans for additional changes
                        in the future to improve the ability of inspectors to detect threat items in cargo
                        containers.




          Effectiveness of Customs and Border Protection’s Procedures to Detect Uranium              Page 1
                                   In Two Smuggling Incidents
Background
             To test controls over importing weapons of mass destruction, ABC News was
             successful in two attempts at smuggling depleted uranium into the country.
             Scientists advised ABC News that shielded depleted uranium had the same
             signature as shielded weapons-grade uranium, and loaned ABC News a 15 pound
             cylinder of shielded depleted uranium. However, we were informed by CBP that
             the radiation signatures of shielded depleted uranium and shielded weapons-grade
             uranium are distinctly different. For educational or research purposes, it is legal
             for an individual to possess up to 15 pounds of depleted uranium, and import it
             into the U.S., as long as it is declared.

             In the ﬁrst smuggling event, ABC News reported that a steel pipe containing a 15
             pound cylinder of depleted uranium, which was shielded with lead, was placed
             in a suitcase and accompanied the ABC News reporters by rail from Austria
             to Turkey. The reporters thought that this route would simulate a journey that
             a terrorist would most likely take in smuggling radioactive materials from the
             former Soviet Union. During this 47-hour European rail trip, the suitcase was
             placed on a rack in the cabin of the train car. The reporters said that they saw no
             sign of any radiation detection equipment during the trip. In Istanbul, Turkey, the
             suitcase was placed inside an ornamental chest that was crated and nailed shut.
             The crate containing the suitcase was then placed alongside crates of huge vases
             and Turkish horse carts in a large metal shipping container that was ordered from
             a company that arranges shipments to the U.S. The container was then loaded
             onto a ship that left Istanbul on July 10, 2002. The crate was targeted as high-risk
             for screening by the U.S. Customs Service (Customs). ABC News broadcast on
             September 11, 2002, that Customs failed to detect depleted uranium carried from
             Europe to the U.S.

             During the second smuggling event, ABC News smuggled the same cylinder of
             depleted uranium in August 2003. ABC News placed the cylinder containing
             depleted uranium into a suitcase. The suitcase was then placed into a teak trunk.
             The trunk, along with other furniture, was loaded into a container in Jakarta,
             Indonesia, and then transshipped to the U.S. from Tanjung Pelepas, Malaysia.
             The container was shipped in late July 2003 and arrived on August 23, 2003.
             This shipment was also targeted as high-risk for screening and subsequently
             inspected by CBP personnel, but was then allowed to proceed from the port by
             truck on September 2, 2003. As in the earlier incident, ABC News announced on
             September 11, 2003, that Customs again failed to detect depleted uranium.




Page 2        Effectiveness of Customs and Border Protection’s Procedures to Detect Uranium
                                       In Two Smuggling Incidents
Capability of CBP’s Deployed Equipment To Detect Radiation Emitted in
the Two Smuggling Incidents
                   At our request, CBP prepared an analysis that addressed the capabilities of
                   various detection equipment. To perform the analysis, CBP utilized the services
                   of senior scientists on loan to CBP from the Department of Energy’s Paciﬁc
                   Northwest National Laboratory. The testing was based on simulated models
                   using actual sources of uranium, which assumed that both depleted uranium and
                   weapons-grade uranium were smuggled into the country in a manner similar to
                   the two smuggling events. The analysis described the distances beyond which the
                   detection equipment would no longer detect the radiation source. The radiation
                   portal monitors installed by CBP have the inherent sensitivity to detect both
                   depleted and highly enriched uranium in cargo. The ability to detect is reduced by
                   certain factors. We made recommendations that will enhance the effectiveness of
                   radiation detection equipment.

Search Protocols and Procedures Followed by CBP in Each of the Two
Events
                   The protocols and procedures that CBP ofﬁcials followed, at the time of the
                   two smuggling incidents, were not adequate to detect the depleted uranium.
                   CBP has since enhanced its ability to screen targeted containers for radioactive
                   emissions based on deployment of more sensitive technology, better procedures,
                   and training. Along these lines, we made recommendations that would enhance
                   training and search procedures followed by CBP inspectors.




     Effectiveness of Customs and Border Protection’s Procedures to Detect Uranium             Page 3
                              In Two Smuggling Incidents
Appendix A
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      General Counsel
                      Under Secretary for Border & Transportation Security
                      DHS OIG Liaison
                      DHS Public Affairs

                      Customs and Border Protection

                      Commissioner
                      Audit Liaison

                      Ofﬁce of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




Page 4                 Effectiveness of Customs and Border Protection’s Procedures to Detect Uranium
                                                In Two Smuggling Incidents
Additional Information and Copies

To obtain additional copies of this report, call the Ofﬁce of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at www.
dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland Security, Washington, DC
20528, Attn: Ofﬁce of Inspector General, Investigations Division – Hotline. The OIG
seeks to protect the identity of each writer and caller.
